           67$78725< $1' $'0,1,675$7,9(
                 5(63216,%,/,7,(6

7KH ,QVSHFWRU *HQHUDO $FW RI 4<:; +3XEOLF /DZ <80785,/ DV DPHQGHG/ VHWV IRUWK VSHFLILF UH0
TXLUHPHQWV IRU VHPLDQQXDO UHSRUWV WR EH PDGH WR WKH &KDLUPDQ IRU WUDQVPLWWDO WR WKH &RQ0
JUHVV1 $ VHOHFWLRQ RI RWKHU VWDWXWRU\ DQG DGPLQLVWUDWLYH UHSRUWLQJ DQG HQIRUFHPHQW UHVSRQ0
VLELOLWLHV DQG DXWKRULWLHV RI WKH ,QVSHFWRU *HQHUDO +2,*, DUH OLVWHG EHORZ=

                    2,* $8',7 $1' 0$1$*(0(17 5(9,(:
3XEOLF /DZ +31/1, <:0588    )HGHUDO 0DQDJHUV· )LQDQFLDO ,QWHJULW\ $FW RI 4<;5
31/1          4374067       'HEW &ROOHFWLRQ ,PSURYHPHQW $FW RI 4<<9
31/1          43408:9       &KLHI )LQDQFLDO 2IILFHUV $FW RI 4<<3
31/1          43507;9       (QHUJ\ 3ROLF\ $FW RI 4<<5
31/1          436095        *RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW RI 4<<6
31/1          4360688       )HGHUDO $FTXLVLWLRQ 6WUHDPOLQLQJ $FW RI 4<<7
31/1          4360689       *RYHUQPHQW 0DQDJHPHQW 5HIRUP $FW RI 4<<7
31/1          4370439       ,QIRUPDWLRQ 7HFKQRORJ\ 0DQDJHPHQW 5HIRUP $FW RI 4<<9
31/1          437053;       )HGHUDO )LQDQFLDO 0DQDJHPHQW ,PSURYHPHQW $FW RI 4<<9
*HQHUDO $FFRXQWLQJ 2IILFH *RYHUQPHQW $XGLWLQJ 6WDQGDUGV


            &5,0,1$/ $1' &,9,/ ,19(67,*$7,9( $87+25,7,(6
7LWOH 8                     8QLWHG 6WDWHV &RGH/ VHFWLRQ 885D
7LWOH 4;                    8QLWHG 6WDWHV &RGH/ VHFWLRQV RQ FULPH DQG FULPLQDO
                            SURFHGXUHV DV WKH\ SHUWDLQ WR 2,*·V RYHUVLJKW RI GHSDUWPHQWDO
                            SURJUDPV DQG HPSOR\HH PLVFRQGXFW
7LWOH 64                    8QLWHG 6WDWHV &RGH/ VHFWLRQ 6:5< HW VHT1/ WKH )DOVH &ODLPV $FW
                                                                     ig
                                             2FWREHU 5334 6HPL$QQXDO 5HSRUW




                                           7$%/( 2) &217(176

                                                                                                                                             3DJH

&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                                  4
 ,QIRUPDWLRQ 6HFXULW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1               4
 +XPDQ &DSLWDO 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                           5
 3HUIRUPDQFH %DVHG 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                               7
 5HGHVLJQLQJ %XVLQHVV 3URFHVVHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                         8
 ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                 9

&200,66,21·6 25*$1,=$7,21$/ 6758&785( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                             :

&200,66,21 352),/( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                          ;

7+( 2)),&( 2) ,163(&725 *(1(5$/ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 43

$8',76 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1   44
 $XGLW 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1           44
 6XPPDU\ RI 6LJQLILFDQW $XGLWV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                         45
   (YDOXDWLRQ RI WKH 8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ·V ,QIRUPDWLRQ
    6HFXULW\ 3URJUDP/ 2,*0$5035034 +6HSWHPEHU 43/ 5334, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                                                    45

$8',7 )2//2:083 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                    48
(YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
    &RPPLVVLRQ E\ WKH 'HSDUWPHQW RI WKH ,QWHULRU/ 2,*0$5037033
    +-XO\ 58/ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1          48
(YDOXDWLRQ RI 86,7&·V 5HFRUGV 0DQDJHPHQW/ 2,*0$5038033
  +0DUFK :/ 5334, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1          48
(YDOXDWLRQ RI WKH &RPPLVVLRQ·V ,PSOHPHQWDWLRQ RI (0)2,$/ 2,* $5034034
  +0DUFK 53/ 5334, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1           49
5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW )XQFWLRQ/
  2,*0$5034033 +6HSWHPEHU 5</ 5333, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                              49

,163(&7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4;
  ,QVSHFWLRQ 5HSRUW /LVW 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4;

,19(67,*$7,216 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4<
6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 4<


                                                                          L
                                                                 ig
                                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




                           7$%/( 2) &217(1760&RQWLQXHG

                                                                                                                                       3DJH

27+(5 $&7,9,7,(6 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1            53
 5HJXODWRU\ 5HYLHZ 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1      53
 *HQHUDO $FFRXQWLQJ 2IILFH +*$2, 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1                    53
 /LDLVRQ $FWLYLWLHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1   54
 /HJLVODWLYH /LDLVRQ $FWLYLWLHV 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1             55

5(3257,1* 5(48,5(0(176 ,1'(; 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 56

7DEOH 4 $8',7 5(32576 :,7+ 48(67,21(' &2676 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 57

7DEOH 5 $8',7 5(32576 :,7+ 5(&200(1'$7,216 7+$7 )81'6
 %( 387 72 %(77(5 86( 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 58

*/266$5< 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 1 59




                                                                      LL
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




                     &200,66,21·6 723
                  0$1$*(0(17 &+$//(1*(6
7KH ´7RS 0DQDJHPHQW &KDOOHQJHVµ IDFLQJ WKH ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ
+&RPPLVVLRQ2,7&, DV LGHQWLILHG E\ WKH 2IILFH RI ,QVSHFWRU *HQHUDO +2,*,³DV ZHOO DV UHFHQW
2,* DFWLYLWLHV UHODWLQJ WR HDFK FKDOOHQJH³DUH GLVFXVVHG EHORZ1 7KURXJK DXGLWV/
LQVSHFWLRQV DQG RWKHU DVVLVWDQFH/ WKH 2,* SUR²DFWLYHO\ KDV EHHQ KHOSLQJ WKH &RPPLVVLRQ
WR DGGUHVV WKHVH FKDOOHQJHV1


                                     ,QIRUPDWLRQ 6HFXULW\




7KH LQIRUPDWLRQ WKDW WKH &RPPLVVLRQ SURFHVVHV DQG JHQHUDWHV LV D YDOXDEOH DVVHW WKDW
PDQDJHPHQW PXVW SURWHFW IURP ORVV/ PLVXVH/ XQDXWKRUL]HG DFFHVV RU PRGLILFDWLRQ1 7KH
FKDOOHQJH WKH &RPPLVVLRQ IDFHV LQ SURYLGLQJ VXFK SURWHFWLRQ LV KRZ WR DSSO\ DGHTXDWH
UHVRXUFHV WR HQVXUH VXIILFLHQW LQIRUPDWLRQ VHFXULW\1 $OWKRXJK PXFK RI WKLV LQIRUPDWLRQ LV
LQ HOHFWURQLF IRUP/ LW UHVLGHV LQ D YDULHW\ RI KDUGZDUH SODWIRUPV DQG VRIWZDUH DSSOLFDWLRQV/
DFFHVVLEOH WKURXJK YDULRXV FRPPXQLFDWLRQV OLQNV1 $W SUHVHQW/ WKH &RPPLVVLRQ·V GDWD FRXOG
EH VXVFHSWLEOH ERWK WR SK\VLFDO DQG HOHFWURQLF WKUHDWV1
&RQJUHVV HQDFWHG WKH *RYHUQPHQW ,QIRUPDWLRQ 6HFXULW\ 5HIRUP $FW +*,65$, LQ 5333 WR
KHOS IHGHUDO RUJDQL]DWLRQV SURWHFW JRYHUQPHQW LQIRUPDWLRQ UHVRXUFHV1 *,65$ SURYLGHV
WKDW DJHQFLHV FHQWUDOL]H LQIRUPDWLRQ VHFXULW\ PDQDJHPHQW XQGHU WKHLU &KLHI ,QIRUPDWLRQ
2IILFHUV +&,2,1 7KH QHHG IRU FHQWUDOL]HG LQIRUPDWLRQ VHFXULW\ PDQDJHPHQW UHVXOWV/ LQ SDUW/
IURP WKH KLJKO\ LQWHUFRQQHFWHG QDWXUH RI PRGHUQ LQIRUPDWLRQ V\VWHPV1 :KLOH LQ WKH SURFHVV
RI HVWDEOLVKLQJ LWV RZQ &,2 RIILFH/ WKH &RPPLVVLRQ KDV DSSRLQWHG DQ ,QIRUPDWLRQ 6HFXULW\
2IILFHU WR FRRUGLQDWH WKH LQIRUPDWLRQ VHFXULW\ SURJUDP1
$QRWKHU LPSRUWDQW SURYLVLRQ RI *,65$ LV WKDW DJHQF\ ,QVSHFWRUV *HQHUDO FRQGXFW DQ
DQQXDO LQGHSHQGHQW HYDOXDWLRQ RI WKHLU DJHQF\·V LQIRUPDWLRQ VHFXULW\ SURJUDP DQG
SUDFWLFHV1 7KLV HYDOXDWLRQ LV WR LQFOXGH DSSURSULDWH WHVWV RI LQIRUPDWLRQ VHFXULW\ FRQWUROV
DQG DQ DVVHVVPHQW RI DJHQF\ FRPSOLDQFH ZLWK *,65$ UHTXLUHPHQWV DQG UHODWHG
LQIRUPDWLRQ VHFXULW\ SROLFLHV/ SURFHGXUHV/ VWDQGDUGV DQG JXLGHOLQHV1 $FFRUGLQJO\/ ZH
FRQGXFWHG D FRPSUHKHQVLYH DXGLW RI WKH &RPPLVVLRQ·V LQIRUPDWLRQ VHFXULW\ SURJUDP/
VXPPDUL]HG RQ SDJH 441 :H SODQ WR IXUWKHU HYDOXDWH VHOHFWHG DVSHFWV RI WKH &RPPLVVLRQ·V
LQIRUPDWLRQ VHFXULW\ SURJUDP LQ )< 53351

                                             4
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG



                                    +XPDQ &DSLWDO 0DQDJHPHQW



+XPDQ FDSLWDO LV WKH &RPPLVVLRQ·V ODUJHVW UHVRXUFH/ ZLWK VDODULHV DQG SHUVRQQHO EHQHILWV
UHSUHVHQWLQJ :8 SHUFHQW RI WKH EXGJHW1 7KH &RPPLVVLRQ PDLQWDLQV DQ H[SHUW VWDII RI
SURIHVVLRQDO LQWHUQDWLRQDO WUDGH DQG QRPHQFODWXUH DQDO\VWV/ LQYHVWLJDWRUV/ DWWRUQH\V/
HFRQRPLVWV/ FRPSXWHU VSHFLDOLVWV DQG DGPLQLVWUDWLYH VXSSRUW SHUVRQQHO1 $OO HPSOR\HHV DUH
ORFDWHG DW 833 ( 6WUHHW/ 6:/ :DVKLQJWRQ/ '& 537691 $W WKH HQG RI ILVFDO \HDU +)<, 5334/
WKH &RPPLVVLRQ HPSOR\HG D WRWDO RI 67318 SHUPDQHQW HPSOR\HHV1

7KH &RPPLVVLRQ IDFHV D FRQWLQXLQJ FKDOOHQJH LQ PDWFKLQJ LWV ZRUNIRUFH WR LWV ZRUNORDG1
7KH &RPPLVVLRQ·V XQLTXH PLVVLRQ DQG IXQFWLRQV DV ZHOO DV H[WHUQDO IDFWRUV PDNH ZRUNORDG
IRUHFDVWLQJ GLIILFXOW1 )RU H[DPSOH/ E\ WKH EHJLQQLQJ RI )< 5335/ WKH &RPPLVVLRQ ZLOO KDYH
FRPSOHWHG WKUHH RI WKH EXVLHVW \HDUV LQ LWV KLVWRU\/ SULPDULO\ GXH WR WKH QHHG WR FRQGXFW
VXQVHW UHYLHZV RQ DOO RXWVWDQGLQJ $QWLGXPSLQJ DQG &RXQWHUYDLOLQJ 'XW\ RUGHUV1 $V
PDQGDWHG E\ WKH 8UXJXD\ 5RXQG $JUHHPHQWV $FW +85$$,/ WKH &RPPLVVLRQ ZDV UHTXLUHG
WR UHYLHZ 63< RUGHUV/ VRPH GDWLQJ IURP WKH 4<93V/ HYHQWXDOO\ FRQVROLGDWHG RQ WKH EDVLV RI
SURGXFW FRYHUDJH LQWR 438 JURXSHG LQYHVWLJDWLRQV1 7KH 85$$ SURYLGHG D 60\HDU WUDQVLWLRQ
SHULRG WR FRQGXFW WKHVH LQLWLDO UHYLHZV/ NQRZQ DV WUDQVLWLRQ UHYLHZV/ EHJLQQLQJ -XO\ 4<<;
DQG HQGLQJ -XO\ 53341 'XULQJ WKLV 60\HDU WUDQVLWLRQ SHULRG/ WKH DYHUDJH DQQXDO QXPEHU
RI FRPSOHWHG LPSRUW LQMXU\ LQYHVWLJDWLRQV URVH WR 87 SHU \HDU³D 48: SHUFHQW LQFUHDVH RYHU
WKH SULRU 60\HDU SHULRG +)< 4<<904<<;,1 7KH &RPPLVVLRQ PDQDJHG WKH LQFUHDVHG WUDQVLWLRQ
ZRUNORDG WKURXJK D FRPELQDWLRQ RI LQWHUQDO WHPSRUDU\ UHDVVLJQPHQWV DQG WHUP
DSSRLQWPHQWV/ EXW ZLWKRXW DGGLWLRQV WR SHUPDQHQW VWDII1

+DOI RI WKH WUDQVLWLRQ RUGHUV UHPDLQ LQ SODFH DQG ZLOO KDYH WR EH UHYLHZHG DJDLQ EHJLQQLQJ
LQ )< 53371 1RZ D SHUPDQHQW SDUW RI WKH &RPPLVVLRQ·V ZRUNORDG/ WKHUH ZLOO EH DW OHDVW 8
WR 43 JURXSV RI RUGHUV UHYLHZHG HYHU\ \HDU/ LQ DGGLWLRQ WR QHZ $QWLGXPSLQJ DQG
&RXQWHUYDLOLQJ 'XW\ ILOLQJV1 6LPLODUO\/ WKH &RPPLVVLRQ KDV H[SHULHQFHG D VLJQLILFDQW
LQFUHDVH LQ FRPSODLQWV XQGHU VHFWLRQ 66: RI WKH 7DULII $FW RI 4<63/ ,QYHVWLJDWLRQV RI 8QIDLU
3UDFWLFHV LQ ,PSRUW 7UDGH1 7KH FRPSODLQWV UHTXLUH DGGLWLRQDO LQWHOOHFWXDO SURSHUW\0EDVHG
LPSRUW LQYHVWLJDWLRQV/ PRVW IUHTXHQWO\ LQYROYLQJ DOOHJDWLRQV RI SDWHQW RU WUDGHPDUN
LQIULQJHPHQW1

                                             5
                                          ig
                            2FWREHU 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG
:KHWKHU WKH &RPPLVVLRQ·V ZRUNORDG FRQWLQXHV WR LQFUHDVH RU QRW/ LW IDFHV D ZRUNIRUFH
FKDOOHQJH FRPPRQ WR PRVW IHGHUDO HQWLWLHV= UHWLUHPHQW HOLJLELOLW\1 :H IRXQG WKDW E\ 5338/
QHDUO\ RQH WKLUG RI WKH &RPPLVVLRQ·V ZRUNIRUFH³LQFOXGLQJ KDOI RI LWV VXSHUYLVRUV³ZLOO EH
HOLJLEOH IRU UHJXODU UHWLUHPHQW1 7KH &RPPLVVLRQ/ SRVVLEO\ IDFHG ZLWK ORVLQJ LWV PRVW
H[SHULHQFHG HPSOR\HHV/ ZLOO EH FKDOOHQJHG WR SUHVHUYH ZRUNIRUFH NQRZOHGJH DQG VNLOOV1
,I WKHUH LV D SRVLWLYH DVSHFW WR WKH UHWLUHPHQW HOLJLELOLW\ GLOHPPD/ LW LV WKDW WKH &RPPLVVLRQ
KDV D QHDU WHUP RSSRUWXQLW\ IRU PDQDJHPHQW UHDOLJQPHQW1 7KH &RPPLVVLRQ FRXOG
VWUHDPOLQH PDQDJHPHQW E\ QRW UHSODFLQJ VRPH UHWLULQJ VXSHUYLVRUV1 6LQFH PXFK RI WKH
&RPPLVVLRQ·V LQYHVWLJDWLYH DQG UHVHDUFK ZRUN LV EHLQJ GRQH E\ PXOWL0GLVFLSOLQDU\ WHDPV
IURP YDULRXV RIILFHV/ WKHVH RIILFHV FRXOG EH UHDOLJQHG IURP KLHUDUFKLFDO WR WHDP VWUXFWXUHV1
$QRWKHU SRVVLELOLW\ LV WR UHDOLJQ RIILFHV WR EHWWHU UHIOHFW WKH &RPPLVVLRQ·V ILYH VWUDWHJLF
RSHUDWLRQV1
)ROORZLQJ XS RQ LWV HDUOLHU ,QVSHFWLRQ UHSRUW/ ´6HOI²$VVHVVPHQW RI WKH &RPPLVVLRQ·V
+XPDQ &DSLWDO/µ WKH 2,* LV FXUUHQWO\ FRQGXFWLQJ DQ LQVSHFWLRQ RI WKH &RPPLVVLRQ·V
SURJUHVV LQ LPSOHPHQWLQJ )DPLO\0)ULHQGO\ :RUNSODFH SURJUDPV1




                                              6
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG



                               3HUIRUPDQFH %DVHG 0DQDJHPHQW




7KH &RPPLVVLRQ LV FRPPLWWHG WR SHUIRUPDQFH0EDVHG PDQDJHPHQW DV HPERGLHG LQ WKH
*RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW +*35$,1 7KH FKDOOHQJH IRU WKH &RPPLVVLRQ KDV
EHHQ WR JR EH\RQG SHUIRUPDQFH²EDVHG PDQDJHPHQW DV DQ HOHPHQW RI KLJK OHYHO SODQQLQJ
WR SHUIRUPDQFH0EDVHG PDQDJHPHQW DV DQ DFWXDO GD\0WR0GD\ PDQDJHPHQW FXOWXUH WKDW LV
LQWHUZRYHQ LQWR DOO DVSHFWV RI WKH &RPPLVVLRQ·V RSHUDWLRQV1 7KLV UHTXLUHV QRW RQO\ D FOHDU/
XQGHUVWDQGDEOH GHILQLWLRQ RI WKH &RPPLVVLRQ·V VWUDWHJLF JRDOV DQG REMHFWLYHV/ EXW DOVR WKHLU
WUDQVODWLRQ LQWR VXSSRUWLQJ JRDOV DQG REMHFWLYHV IRU LQGLYLGXDO RIILFHV DQG LQGLYLGXDO
HPSOR\HHV1 2QFH WKLV WUDQVODWLRQ KDV RFFXUUHG/ WKHUH LV D QHHG IRU FRQWLQXRXV PHDVXUHPHQW
DQG HYDOXDWLRQ RI SHUIRUPDQFH DW DOO OHYHOV WR DVVHVV SURJUHVV WRZDUG JRDO DWWDLQPHQW DQG
WR DGMXVW DOORFDWLRQ RI UHVRXUFHV DV QHFHVVDU\1
7KH &RPPLVVLRQ KDV PDGH SURJUHVV LQ PHHWLQJ WKLV FKDOOHQJH1 %HJLQQLQJ LQ )< 5333/ WKH
&RPPLVVLRQ LPSOHPHQWHG D EXGJHW VWUXFWXUH WKDW DOORZHG QHDUO\ DOO DFWLYLW\ FRVWV WR EH
DOORFDWHG DPRQJ LWV ILYH VWUDWHJLF RSHUDWLRQV1 7KLV KDV HQDEOHG WKH &RPPLVVLRQ WR UHDGLO\
LGHQWLI\ DQG FRQWURO WKH UHVRXUFHV DOORFDWHG WR WKH YDULRXV VWUDWHJLF RSHUDWLRQV1 7R IXOO\
DFKLHYH SHUIRUPDQFH EXGJHWLQJ FDSDELOLW\/ WKH &RPPLVVLRQ VKRXOG IXUWKHU UHILQH WKH
EXGJHW VWUXFWXUH WR LGHQWLI\ UHVRXUFHV DOORFDWHG WR VSHFLILF SHUIRUPDQFH REMHFWLYHV1 7KH
&RPPLVVLRQ FDQ FRQWLQXH WR LPSURYH PDQDJHPHQW HIIHFWLYHQHVV WKURXJK JUHDWHU
DXWRPDWLRQ DQG LQWHJUDWLRQ RI LWV EXGJHW/ SURFXUHPHQW/ DVVHW PDQDJHPHQW/ DQG RWKHU
ILQDQFLDO PDQDJHPHQW SURFHVVHV1
7KH 2,* LV FXUUHQWO\ FRQGXFWLQJ DQ LQVSHFWLRQ RI WKH &RPPLVVLRQ·V VWUDWHJLF SODQQLQJ
SURFHVV1




                                             7
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG




                                    5HGHVLJQLQJ %XVLQHVV 3URFHVVHV




/LNH RWKHU IHGHUDO HQWLWLHV/ WKH &RPPLVVLRQ LV FKDOOHQJHG WR UHGHVLJQ LWV EXVLQHVV SURFHVVHV
WR WDNH DGYDQWDJH RI PRGHUQ LQIRUPDWLRQ WHFKQRORJ\ DQG PDQDJHPHQW WHFKQLTXHV1 0DQ\
RI WKH &RPPLVVLRQ·V SURFHVVHV DUH VWLOO ODUJHO\ SDSHU0FHQWULF1 5HGHVLJQLQJ WKHVH SURFHVVHV
WR DOORZ PRUH DXWRPDWLRQ DQG HOHFWURQLF SURFHVVLQJ FDQ OHDG WR VLJQLILFDQW LPSURYHPHQWV
LQ HFRQRP\ DQG HIILFLHQF\1 3URDFWLYH SURFHVVHV/ GHVLJQHG WR LQFRUSRUDWH LPSURYHG SODQQLQJ
PHWKRGRORJ\/ FDQ OHDG WR D ZRUNIRUFH WKDW LV ERWK PRUH SURGXFWLYH DQG PRUH UHVSRQVLYH WR
FXVWRPHU QHHGV1
7KH &RPPLVVLRQ VXEPLWWHG LWV SODQ IRU LPSOHPHQWLQJ WKH *RYHUQPHQW 3DSHUZRUN
(OLPLQDWLRQ $FW WR WKH 2IILFH RI 0DQDJHPHQW DQG %XGJHW +20%, DW WKH HQG RI )< 53331
%DVHG RQ D UHYLHZ RI DOO VLJQLILFDQW WUDQVDFWLRQV EHWZHHQ WKH &RPPLVVLRQ DQG WKH SXEOLF/
WKH SODQ VHW JRDOV IRU SURYLGLQJ RSWLRQV E\ WKH HQG RI )< 5336 IRU WKRVH ZLVKLQJ WR FRQGXFW
EXVLQHVV ZLWK WKH &RPPLVVLRQ HOHFWURQLFDOO\1 7KH SODQ PD\ EH DFFHVVHG E\ ,QWHUQHW DW
KWWS=22ZZZ1XVLWF1JRY2ZHEDERXW1KWP1
7KH 2,* LV FXUUHQWO\ FRQGXFWLQJ DQ DXGLW HYDOXDWLQJ SRVVLEOH SURFHVV LPSURYHPHQWV IRU
SODQQLQJ DQG FRQGXFWLQJ WKH &RPPLVVLRQ·V UHVHDUFK SURJUDP1




                                             8
                                          ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




&200,66,21·6 723 0$1$*(0(17 &+$//(1*(6³&RQWLQXHG



                             ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW


5DSLGO\ HYROYLQJ LQIRUPDWLRQ WHFKQRORJ\/ SDUWLFXODUO\ LQ QHWZRUNLQJ DQG
WHOHFRPPXQLFDWLRQV/ SUHVHQWV WKH &RPPLVVLRQ ZLWK RSSRUWXQLWLHV IRU PRGHUQL]LQJ LWV
LQIRUPDWLRQ DQG PDQDJHPHQW V\VWHPV1 )XUWKHU DXWRPDWLQJ WKH &RPPLVVLRQ·V EXVLQHVV
SURFHVVHV VKRXOG SURPRWH JUHDWHU HFRQRP\ DQG HIILFLHQF\ ZKLOH IUHHLQJ XS KXPDQ FDSLWDO
IRU PRUH HIIHFWLYH SODQQLQJ/ HYDOXDWLRQ DQG UHVHDUFK1 /LNHZLVH/ WKH DSSOLFDWLRQ RI PRGHUQ
ZHE0EDVHG LQIRUPDWLRQ DUFKLWHFWXUHV FDQ HQKDQFH WKH ZD\ WKH &RPPLVVLRQ LQWHUDFWV ZLWK
LWV FXVWRPHUV DQG WKH SXEOLF1
7KH &RPPLVVLRQ·V FKDOOHQJH LV WR FRRUGLQDWH ZLWKLQ LWV RIILFHV DQG DFWLYLWLHV D VKDUHG YLVLRQ
WR FRQVWDQWO\ LPSURYH LQ LWV EXVLQHVV V\VWHPV E\ DSSO\LQJ PRGHUQ LQIRUPDWLRQ WHFKQRORJ\1
6XFK OHDGHUVKLS FDQ DVVXUH WKDW LQIRUPDWLRQ WHFKQRORJ\ LV MXVW DV DSSOLFDEOH WR
FXVWRPHU0IDFLQJ VWUDWHJLF EXVLQHVV SURFHVVHV DV LW LV WR EDFN0RIILFH DGPLQLVWUDWLYH
SURFHVVHV/ OLNH DFFRXQWLQJ/ WR ZKLFK LW KDV WUDGLWLRQDOO\ EHHQ DSSOLHG1
7KH &RQJUHVV KDV UHFRJQL]HG WKH SULRULW\ RI LQIRUPDWLRQ WHFKQRORJ\ LQ JRYHUQPHQW WKURXJK
OHJLVODWLRQ VXFK DV WKH &OLQJHU0&RKHQ $FW RI 4<<91 ,Q UHVSRQVH WR DQ 2,* DXGLW
UHFRPPHQGDWLRQ/ WKH &RPPLVVLRQ KDV WDNHQ VWHSV WR DSSRLQW D &KLHI ,QIRUPDWLRQ 2IILFHU1




                                             9
                                                                                       ig
                                                            2FWREHU 5334 6HPL$QQXDO 5HSRUW




                                      &200,66,21·6 25*$1,=$7,21$/ 6758&785(

                                                  8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ




                                                                                     &KDLUPDQ
                                                                               &200,66,21




    2IILFH RI WKH                                                                                $GPLQLVWUDWLRQ         2IILFH RI WKH              2IILFH RI        2IILFH RI
                           2SHUDWLRQV                                       2IILFH RI
   $GPLQLVWUDWLYH                                   2IILFH RI WKH                                   2IILFH RI             *HQHUDO                 ,QVSHFWRU          (TXDO
                           2IILFH RI WKH                                    ([WHUQDO
    /DZ -XGJHV                                       6HFUHWDU\                                    WKH 'LUHFWRU           &RXQVHO                   *HQHUDO         (PSOR\PHQW
                             'LUHFWRU                                       5HODWLRQV                                                                              2SSRUWXQLW\
                                                                         7UDGH 5HPHG\
                                                                         $VVLVWDQFH 2IILFH

                                                                                                                                             (PSOR\HH
                                                                                                                                            'HYHORSPHQW



                          2IILFH RI                                     2IILFH RI                   2IILFH RI                                                    2IILFH RI
   2IILFH RI                                       2IILFH RI                                                             2IILFH RI            2IILFH RI
                         ,QGXVWULHV                                   ,QIRUPDWLRQ                   )LQDQFH                                                     )DFLOLWLHV
  (FRQRPLFV                                     ,QYHVWLJDWLRQV                                                          3HUVRQQHO            3XEOLVKLQJ
                                                                        6HUYLFHV                                                                               0DQDJHPHQW




                         2IILFH RI
                       7DULII $IIDLUV              2IILFH RI
                        DQG 7UDGH               8QIDLU ,PSRUW
                       $JUHHPHQWV               ,QYHVWLJDWLRQV



%XGJHW &RPPLWWHH                                                                                       ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW 6WHHULQJ &RPPLWWHH +,506&,
   $XWKRULW\= $GP1 2UGHU 33039/ GDWHG :259233                                                             $XWKRULW\= $GP1 2UGHU 3303;/ GDWHG ;258233

                                                                                                       /DERU00DQDJHPHQW 2FFXSDWLRQDO 6DIHW\ DQG +HDOWK &RPPLWWHH
'LUHFWLYHV 5HYLHZ &RPPLWWHH                                                                              $XWKRULW\= $GP1 2UGHU 3034/ GDWHG 824234
    $XWKRULW\= &2:4080337/ GDWHG :2442<:

'RFXPHQW ,PDJLQJ 2YHUVLJKW &RPPLWWHH +',2&,                                                            /DERU00DQDJHPHQW 3DUWQHUVKLS &RXQFLO
   $XWKRULW\= $GP1 2UGHU <9039/ GDWHG 62482<9                                                            $XWKRULW\= $GP1 2UGHU <<038/ GDWHG 62582<<

([HFXWLYH 5HVRXUFHV %RDUG +(5%,                                                                        6WUDWHJLF 3ODQQLQJ &RPPLWWHH +63&,
   $XWKRULW\= $GP1 2UGHU 3303:/ GDWHG ;255233                                                             $XWKRULW\= $GP1 2UGHU 34039/ GDWHG 624234

,QFHQWLYH $ZDUGV &RPPLWWHH +,$&,
    $XWKRULW\= $GP1 2UGHU <505:/ GDWHG :252<5 DQG $GP1 2UGHU <:035/ GDWHG 432482<9




                                                                                             :
                                        ig
                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




                        &200,66,21 352),/(
                          KWWS=22ZZZ1XVLWF1JRY
7KH &RPPLVVLRQ LV DQ LQGHSHQGHQW/ TXDVL0MXGLFLDO/ QRQSDUWLVDQ IHGHUDO DJHQF\ HVWDEOLVKHG
E\ &RQJUHVV ZLWK EURDG LQYHVWLJDWLYH SRZHUV RQ PDWWHUV RI WUDGH1 7KH PLVVLRQ RI WKH
&RPPLVVLRQ LV WZRIROG= DGPLQLVWHU 8161 WUDGH UHPHG\ ODZV LQ D IDLU DQG REMHFWLYH PDQQHU>
DQG SURYLGH WKH 3UHVLGHQW/ 8161 7UDGH 5HSUHVHQWDWLYH/ DQG WKH &RQJUHVV ZLWK LQGHSHQGHQW/
TXDOLW\ DGYLFH DQG LQIRUPDWLRQ RQ PDWWHUV RI LQWHUQDWLRQDO WUDGH DQG FRPSHWLWLYHQHVV1
0DMRU &RPPLVVLRQ DFWLYLWLHV LQFOXGH=
       P ,PSRUW ,QMXU\ ,QYHVWLJDWLRQV ²7KH &RPPLVVLRQ PDNHV GHWHUPLQDWLRQV LQ D
         YDULHW\ RI LPSRUW LQMXU\ LQYHVWLJDWLRQV/ SULPDULO\ DQWLGXPSLQJ DQG
         FRXQWHUYDLOLQJ GXW\ +$'2&9', LQYHVWLJDWLRQV FRQFHUQLQJ WKH HIIHFWV RI XQIDLUO\
         WUDGHG LPSRUWV RQ D 8161 LQGXVWU\1
       P ,QWHOOHFWXDO 3URSHUW\²%DVHG ,QYHVWLJDWLRQV²7KH &RPPLVVLRQ DGMXGLFDWHV
         FRPSODLQWV EURXJKW E\ GRPHVWLF LQGXVWULHV XQGHU VHFWLRQ 66: RI WKH 7DULII $FW
         RI 4<63 WKDW DOOHJH LQIULQJHPHQW RI 8161 LQWHOOHFWXDO SURSHUW\ ULJKWV DQG RWKHU
         XQIDLU PHWKRGV RI FRPSHWLWLRQ E\ LPSRUWHG JRRGV1
       P 5HVHDUFK²7KH &RPPLVVLRQ·V UHVHDUFK SURJUDP FRQVLVWV RI LWV SUREDEOH
         HFRQRPLF HIIHFWV LQYHVWLJDWLRQV XQGHU VHFWLRQ 464 RI WKH 7DULII $FW RI 4<63>
         DQDO\VLV RI WUDGH DQG FRPSHWLWLYHQHVV LVVXHV XQGHU VHFWLRQ 665> DQG SURYLGLQJ
         LQGHSHQGHQW DVVHVVPHQWV RQ D ZLGH UDQJH RI HPHUJLQJ WUDGH LVVXHV1
       P 7UDGH ,QIRUPDWLRQ 6HUYLFHV²7KH &RPPLVVLRQ·V WUDGH LQIRUPDWLRQ VHUYLFHV
         LQFOXGH VXFK DFWLYLWLHV DV WUDGH UHPHG\ DVVLVWDQFH> OLEUDU\ VHUYLFHV> OHJLVODWLYH
         UHSRUWV> PDLQWHQDQFH RI WKH +DUPRQL]HG 7DULII 6FKHGXOH> 6FKHGXOH ;;> 8161
         6FKHGXOH RI 6HUYLFHV &RPPLWPHQWV XQGHU WKH *HQHUDO $JUHHPHQW RQ 7DULIIV DQG
         7UDGH2:RUOG 7UDGH 2UJDQL]DWLRQ> SUHSDUDWLRQ RI 8161 VXEPLVVLRQV WR WKH
         ,QWHJUDWHG 'DWDEDVH RI WKH :RUOG 7UDGH 2UJDQL]DWLRQ> DQG FHUWDLQ RWKHU
         LQIRUPDWLRQ JDWKHULQJ/ SURFHVVLQJ/ DQG GLVVHPLQDWLRQ DFWLYLWLHV1
       P 7UDGH 3ROLF\ 6XSSRUW²7KH &RPPLVVLRQ VXSSRUWV WKH IRUPXODWLRQ RI 8161
         WUDGH SROLF\/ SURYLGLQJ REMHFWLYH LQSXW WR ERWK WKH ([HFXWLYH %UDQFK DQG WKH
         &RQJUHVV RQ WKH EDVLV RI WKH GLVWLQFWLYH H[SHUWLVH RI LWV VWDII1




                                           ;
                                         ig
                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




&200,66,21 352),/(³&RQWLQXHG
KWWS=22ZZZ1XVLWF1JRY
7KH &RPPLVVLRQ KDV VL[ &RPPLVVLRQHUV/ DSSRLQWHG E\ WKH 3UHVLGHQW DQG FRQILUPHG E\ WKH
6HQDWH/ ZKR VHUYH RQH WHUP RI < \HDUV/ XQOHVV DSSRLQWHG WR ILOO DQ XQH[SLUHG WHUP1 1R PRUH
WKDQ WKUHH &RPPLVVLRQHUV PD\ EH RI WKH VDPH SROLWLFDO SDUW\1 7KH &KDLUPDQ DQG 9LFH
&KDLUPDQ DUH GHVLJQDWHG E\ WKH 3UHVLGHQW DQG VHUYH D 50\HDU VWDWXWRU\ WHUP1 7KH
&KDLUPDQ LV UHVSRQVLEOH/ ZLWKLQ VWDWXWRU\ OLPLWV/ IRU WKH DGPLQLVWUDWLYH IXQFWLRQV RI WKH
&RPPLVVLRQ1
7KH FXUUHQW &RPPLVVLRQHUV DUH 6WHSKHQ .RSODQ/ 'HDQQD 7DQQHU 2NXQ/ /\QQ 01 %UDJJ/
0DUFLD (1 0LOOHU/ -HQQLIHU $1 +LOOPDQ/ DQG 'HQQLV 01 'HYDQH\1 7KH FXUUHQW &KDLUPDQ LV
6WHSKHQ .RSODQ DQG WKH FXUUHQW 9LFH &KDLUPDQ LV 'HDQQD 7DQQHU 2NXQ1
,Q )< 5334/ WKH &RPPLVVLRQ KDG '7;1; PLOOLRQ LQ DYDLODEOH IXQGV +'7;14 PLOOLRQ
DSSURSULDWLRQ, DQG D VWDIILQJ SODQ IRU 6<318 SHUPDQHQW SRVLWLRQV DQG 4:18 WHUP2WHPSRUDU\
SRVLWLRQV1 $OO HPSOR\HHV DUH ORFDWHG LQ RQH EXLOGLQJ DW 833 ( 6WUHHW/ 6:/ :DVKLQJWRQ/ '&1




                        8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ




                                            <
                                               ig
                                   2FWREHU 5334 6HPL$QQXDO 5HSRUW




              7+( 2)),&( 2) ,163(&725 *(1(5$/
                     KWWS=22ZZZ1XVLWF1JRY2RLJ
7KH &RPPLVVLRQ HVWDEOLVKHG WKH 2,* SXUVXDQW WR WKH 4<;; DPHQGPHQWV WR WKH ,QVSHFWRU
*HQHUDO $FW1 7KH ,QVSHFWRU *HQHUDO UHSRUWV GLUHFWO\ WR WKH &KDLUPDQ1 7KH ,QVSHFWRU
*HQHUDO LV UHVSRQVLEOH IRU GLUHFWLQJ DQG FDUU\LQJ RXW DXGLWV/ LQYHVWLJDWLRQV/ DQG LQVSHFWLRQV
UHODWLQJ WR &RPPLVVLRQ SURJUDPV DQG RSHUDWLRQV1 7KH ,QVSHFWRU *HQHUDO DOVR FRPPHQWV
DQG SURYLGHV UHFRPPHQGDWLRQV RQ SURSRVHG OHJLVODWLRQ/ UHJXODWLRQV/ DQG SURFHGXUHV DV WR
WKHLU HFRQRP\/ HIILFLHQF\ DQG HIIHFWLYHQHVV1
$V VKRZQ LQ WKH RUJDQL]DWLRQDO FKDUW/ WKH 2,* KDG WZR IXOO0WLPH SRVLWLRQV DQG WZR
SDUW0WLPH SRVLWLRQV LQ )< 53341

                                2IILFH RI ,QVSHFWRU *HQHUDO= 2UJDQL]DWLRQ
  )XOO0WLPH

          ,QVSHFWRU *HQHUDO




              6WDII $VVLVWDQW

                                                               3DUW0WLPH


                                            $WWRUQH\0$GYLVRU               $XGLWRU



)RU )< 5335/ WKH 2,* ZDV DOORFDWHG 618 VWDII \HDUV1 7KLV SURYLGHG IRU WKUHH IXOO0WLPH
+,QVSHFWRU *HQHUDO/ $VVLVWDQW ,QVSHFWRU *HQHUDO IRU $XGLW/ DQG D 6WDII $VVLVWDQW, DQG RQH
SDUW0WLPH +$WWRUQH\0$GYLVRU, SRVLWLRQV1 7KH &RPPLVVLRQ DOVR DOORFDWHG '468/533 IRU 2,*
DXGLW DQG UHYLHZ VHUYLFHV IRU )< 53351


.HQQHWK )1 &ODUNH MRLQHG WKH 2,* VWDII RQ -XO\ 49/
5334/ DV ,QVSHFWRU *HQHUDO1 &DQGLGDWHV KDYH DFFHSWHG
RIIHUV IRU WKH $VVLVWDQW ,QVSHFWRU *HQHUDO IRU $XGLW DQG
$WWRUQH\0$GYLVRU SRVLWLRQV/ ZKLFK DUH DQWLFLSDWHG WR EH
ILOOHG E\ 2FWREHU </ 53341




                                                 43
                                        ig
                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




                                     $8',76
                              $XGLW 5HSRUW /LVW
:H LVVXHG RQH DXGLW UHSRUW GXULQJ WKLV SHULRG=
       P 2,*0$5035034/ (YDOXDWLRQ RI WKH 8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ·V
         ,QIRUPDWLRQ 6HFXULW\ 3URJUDP +VHH SDJH 45,

7KH &RPPLVVLRQ FRPSOHWHG SHQGLQJ DFWLRQV UHFRPPHQGHG LQ RQH DXGLW UHSRUW=
       P 2,*0$5037033/ (YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV
         3URYLGHG WR WKH &RPPLVVLRQ E\ WKH 'HSDUWPHQW RI WKH ,QWHULRU +VHH SDJH 48,
*HQHUDOO\/ WKH &RPPLVVLRQ PDGH SURJUHVV LQ LPSOHPHQWLQJ SHQGLQJ DFWLRQV UHFRPPHQGHG
LQ WKUHH UHSRUWV IURP RXU ODVW VHPLDQQXDO UHSRUW=
       P 2,*0$5038033/ (YDOXDWLRQ RI 86,7&·V 5HFRUGV 0DQDJHPHQW +VHH SDJH 48,
       P 2,*0$5034034/ (YDOXDWLRQ RI WKH &RPPLVVLRQ·V ,PSOHPHQWDWLRQ RI (00)2,$ +VHH
         SDJH 49,
       P 2,*0$50034033/ 5HYLHZ RI WKH &RPPLVVLRQ·V          ,QIRUPDWLRQ     5HVRXUFHV
         0DQDJHPHQW )XQFWLRQ +VHH SDJH 49,




                                          44
                                        ig
                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




$8',76³&RQWLQXHG


                          6XPPDU\ RI 6LJQLILFDQW $XGLWV


     P (YDOXDWLRQ RI WKH 8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ·V
       ,QIRUPDWLRQ 6HFXULW\ 3URJUDP/ 2,*0$5035034
       +6HSWHPEHU 43/ 5334,
       KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50350341SGI




7KH *RYHUQPHQW ,QIRUPDWLRQ 6HFXULW\ 5HIRUP $FW +*,65$, ZDV HQDFWHG LQ 2FWREHU 53331
5HFRJQL]LQJ WKH QHHG WR SURWHFW WKH JRYHUQPHQW·V LQIRUPDWLRQ UHVRXUFHV/ *,65$ UHTXLUHV
DJHQFLHV WR GHYHORS DQG LPSOHPHQW SODQV/ SROLFLHV DQG SURFHGXUHV WR SURYLGH DGHTXDWH
VHFXULW\ RI LQIRUPDWLRQ UHVRXUFHV FRPPHQVXUDWH ZLWK DVVHVVHG ULVNV1 ,W DOVR SURYLGHV D
FRPSUHKHQVLYH IUDPHZRUN IRU HVWDEOLVKLQJ DQG HQVXULQJ WKH HIIHFWLYHQHVV RI FRQWUROV RYHU
IHGHUDO LQIRUPDWLRQ UHVRXUFHV1 3DUW RI WKLV IUDPHZRUN LV D UHTXLUHPHQW WKDW DJHQF\ 2,*·V
FRQGXFW DQ DQQXDO LQGHSHQGHQW HYDOXDWLRQ RI WKH LQIRUPDWLRQ VHFXULW\ SURJUDP DQG
SUDFWLFHV RI WKHLU DJHQF\1

:H FRQGXFWHG WKLV DXGLW LQ DFFRUGDQFH ZLWK WKH PHWKRGRORJ\ RXWOLQHG LQ WKH *HQHUDO
$FFRXQWLQJ 2IILFH +*$2, )HGHUDO ,QIRUPDWLRQ 6\VWHP &RQWUROV $XGLW 0DQXDO +),6&$0,1
:H HYDOXDWHG WKH &RPPLVVLRQ·V LQIRUPDWLRQ V\VWHPV DQG VHFXULW\ SODQV/ FRQWUROV/
SURFHGXUHV/ SUDFWLFHV/ VWDQGDUGV/ DQG SROLFLHV FRYHULQJ WKH VL[ ),6&$0 FRQWURO DUHDV=
VHFXULW\ SURJUDP SODQQLQJ DQG PDQDJHPHQW/ DFFHVV FRQWUROV/ DSSOLFDWLRQV SURJUDP FKDQJH
FRQWUROV/ VHJUHJDWLRQ RI GXWLHV/ RSHUDWLQJ V\VWHP VHFXULW\/ DQG VHUYLFH FRQWLQXLW\1 2XU
HYDOXDWLRQ DOVR LQFOXGHG WKH &RPPLVVLRQ·V FRQWUROV RYHU VHUYHUV/ GDWDEDVHV/ HPDLO VHUYHU/
ILUHZDOO/ QHWZRUNV +,7&0QHW DQG 3XEOLVKLQJ QHW,/ DQG FRPPXQLFDWLRQ HTXLSPHQW +URXWHUV
DQG VZLWFKHV,1

2XU HYDOXDWLRQ FRYHUHG WKH SK\VLFDO DQG ORJLFDO VHFXULW\ FRQWUROV DQG VHFXULW\
DGPLQLVWUDWLRQ SURFHGXUHV DQG SUDFWLFHV IRU DVVHVVLQJ ULVN/ SURYLGLQJ WUDLQLQJ/ JUDQWLQJ
SHUVRQQHO DFFHVV/ PDLQWDLQLQJ DQG PRQLWRULQJ VHFXULW\ FRQWUROV ZLWKLQ WKH LQIUDVWUXFWXUH/
DQG UHVSRQGLQJ WR DFWXDO RU DWWHPSWHG VHFXULW\ EUHDFKHV1 2XU UHYLHZ FRYHUHG LQIRUPDWLRQ
V\VWHP DQG VHFXULW\ FRQWUROV IRU WKH &RPPLVVLRQ·V PDMRU LQIRUPDWLRQ V\VWHP DSSOLFDWLRQV1

                                          45
                                          ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




$8',76³&RQWLQXHG
:H DOVR HYDOXDWHG VKDUHG VHFXULW\ DGPLQLVWUDWLRQ FRQWUROV DQG SURFHGXUHV EHWZHHQ WKH
&RPPLVVLRQ DQG WKH 'HSDUWPHQW RI WKH ,QWHULRU +'2,, ZLWK UHVSHFW WR WZR
DSSOLFDWLRQV³)HGHUDO )LQDQFLDO 6\VWHP DQG )HGHUDO 3HUVRQQHO 3D\UROO 6\VWHP³ZKLFK
UHVLGH RQ '2,·V PDLQIUDPH FRPSXWHU ORFDWHG DW LWV 1DWLRQDO %XVLQHVV &HQWHU +1%&, LQ
'HQYHU/ &RORUDGR1 :H REWDLQHG DQ LQGHSHQGHQW DVVHVVPHQW IURP '2, RI SK\VLFDO DQG
ORJLFDO VHFXULW\ FRQWUROV RYHU WKH IDFLOLWLHV/ LQFOXGLQJ EDFNXS DQG UHFRYHU\ IDFLOLWLHV/ XVHG
WR VDIHJXDUG DQG SURWHFW VRIWZDUH DQG WKH &RPPLVVLRQ·V GDWD1

%DVHG RQ RXU DXGLW/ ZH IRXQG WKDW WKH &RPPLVVLRQ KDG QRW IXOO\ GHYHORSHG DQG
LPSOHPHQWHG DQ HQWLW\0ZLGH VHFXULW\ SURJUDP GHVLJQHG WR DVVXUH WKDW DGHTXDWH VHFXULW\
LV SURYLGHG IRU DOO ,7& LQIRUPDWLRQ FROOHFWHG/ SURFHVVHG/ WUDQVPLWWHG/ VWRUHG/ RU
GLVVHPLQDWHG LQ JHQHUDO VXSSRUW V\VWHPV DQG PDMRU DSSOLFDWLRQV1 ,Q DGGLWLRQ/ WKH
&RPPLVVLRQ KDG QRW LPSOHPHQWHG WKH QHFHVVDU\ SROLFLHV/ VWDQGDUGV/ DQG SURFHGXUHV
FRQVLVWHQW ZLWK SUHYDLOLQJ JRYHUQPHQW0ZLGH FULWHULD LVVXHG E\ 20% DQG RWKHU UHVSRQVLEOH
DJHQFLHV1

:H DOVR IRXQG WKDW WKH &RPPLVVLRQ KDG QRW GHYHORSHG VHFXULW\ SODQV RU DVVLJQHG VHFXULW\
UHVSRQVLELOLW\ IRU VRPH RI LWV PDMRU DSSOLFDWLRQV1 6RPH DSSOLFDWLRQV KDG QRW EHHQ
DXWKRUL]HG IRU SURFHVVLQJ RU KDG QRW EHHQ SHULRGLFDOO\ UHYLHZHG DV SURYLGHG IRU LQ 20%
&LUFXODU $04631 2WKHU ILQGLQJV ZHUH UHODWHG WR REVHUYHG ZHDNQHVVHV LQ VHFXULW\ WUDLQLQJ/
DFFHVV FRQWUROV/ V\VWHP VRIWZDUH FRQWUROV/ VRIWZDUH GHYHORSPHQW DQG FKDQJH FRQWUROV/ DQG
VHJUHJDWLRQ RI GXW\ FRQWUROV1
$OWKRXJK WKH &RPPLVVLRQ KDG QRW \HW LPSOHPHQWHG *,65$ SURYLVLRQV UHODWLQJ WR
DVVLJQPHQW RI LQIRUPDWLRQ VHFXULW\ UHVSRQVLELOLWLHV WR WKH &,2/ WKH &RPPLVVLRQ ZDV LQ WKH
SURFHVV RI HVWDEOLVKLQJ D &,2 RIILFH1 ,Q WKH PHDQWLPH/ LW KDG DSSRLQWHG DQ ,QIRUPDWLRQ
6HFXULW\ 2IILFHU WR FRRUGLQDWH LQIRUPDWLRQ VHFXULW\ IRU WKH &RPPLVVLRQ1

2XU 4< UHFRPPHQGDWLRQV IRU LPSURYLQJ WKH &RPPLVVLRQ·V LQIRUPDWLRQ VHFXULW\ SURJUDP
ZHUH LQWHQGHG WR=
       4, 5HTXLUH GHYHORSPHQW DQG LPSOHPHQWDWLRQ RI D FRPSUHKHQVLYH HQWLW\0ZLGH
          LQIRUPDWLRQ VHFXULW\ SODQ WKDW LQFOXGHV DOO ,7& VXSSRUW V\VWHPV DQG PDMRU
          DSSOLFDWLRQV1
       5, %ULQJ ,7& LQWR FRQIRUPDQFH ZLWK *,65$/ 20% &LUFXODU $0463/ DQG RWKHU
          DSSOLFDEOH LQIRUPDWLRQ VHFXULW\ JXLGDQFH1
       6, 5HVROYH LGHQWLILHG ZHDNQHVVHV LQ WKH &RPPLVVLRQ·V LQIRUPDWLRQ VHFXULW\ SODQV/
          SROLFLHV/ SURFHGXUHV DQG FRQWUROV1

                                            46
                                        ig
                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




$8',76³&RQWLQXHG
,Q JHQHUDO/ WKH &RPPLVVLRQ FRQFXUUHG ZLWK RXU ILQGLQJV DQG UHFRPPHQGDWLRQV1 ,Q
DFFRUGDQFH ZLWK *,65$/ WKH &RPPLVVLRQ ZLOO SURYLGH D GHWDLOHG SODQ RI DFWLRQ WR 20% E\
2FWREHU 64/ 5334/ ZKLFK ZLOO DGGUHVV RXU UHFRPPHQGDWLRQV1 7KLV SODQ RI DFWLRQ ZLOO VHUYH
DV WKH EDVLV IRU RXU DXGLW IROORZ XS GXULQJ )< 53351




                                          47
                                        ig
                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




                           $8',7 )2//2:083
'XULQJ WKLV UHSRUWLQJ SHULRG/ WKH &RPPLVVLRQ FRPSOHWHG SHQGLQJ DFWLRQV RQ RQH DXGLW DQG
PDGH SURJUHVV LQ FRPSOHWLQJ SHQGLQJ DFWLRQV RQ WKUHH DXGLWV IURP RXU ODVW VHPLDQQXDO
UHSRUW1
(YDOXDWLRQ RI 3HUVRQQHO23D\UROO DQG )LQDQFLDO 6HUYLFHV 3URYLGHG WR WKH
&RPPLVVLRQ E\ WKH 'HSDUWPHQW RI WKH ,QWHULRU/ 2,*0$5037033 +-XO\ 58/ 5333,
KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50370331SGI
$V RI WKH ODVW VHPLDQQXDO UHSRUW/ 4: RI 54 UHFRPPHQGDWLRQV IURP WKLV DXGLW KDG EHHQ
LPSOHPHQWHG1 'XULQJ WKH FXUUHQW UHSRUWLQJ SHULRG/ WKH UHPDLQLQJ IRXU UHFRPPHQGDWLRQV
KDYH EHHQ LPSOHPHQWHG DV IROORZV=

       P 8SGDWH &RPPLVVLRQ GRFXPHQWDWLRQ WR UHIOHFW FXUUHQW WLPH/ DWWHQGDQFH DQG
         SD\UROO SROLFLHV DQG SURFHGXUHV1
       P 'HYHORS D SODQ IRU LPSOHPHQWLQJ DQ LQWHJUDWHG SURFXUHPHQW VXEV\VWHP IRU ))6
         WKDW LQFOXGHV HOHFWURQLF FRPPHUFH IXQFWLRQDOLW\1
       P 3ODQ DQG FRQGXFW D MRLQW HYDOXDWLRQ RI WKH )336 GDWDPDUW1
       P ,PSOHPHQW WKH 6)085 DXWRPDWHG SURFHVVLQJ VHUYLFH RIIHUHG E\ )3361
$OO DJUHHG XSRQ DFWLRQV ZHUH FRPSOHWHG E\ -XO\ 64/ 53341


3HQGLQJ DFWLRQV VWLOO RSHQ RQ UHFRPPHQGDWLRQV UHSRUWHG LQ WKH SUHYLRXV VHPLDQQXDO UHSRUW
IRU WKH IROORZLQJ WKUHH DXGLWV DW WKH HQG RI WKH UHSRUWLQJ SHULRG=
(YDOXDWLRQ RI 86,7&·V 5HFRUGV 0DQDJHPHQW/ 2,*0$5038033 +0DUFK :/ 5334,
KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50380331SGI
7KLV DXGLW UHVXOWHG LQ 55 UHFRPPHQGDWLRQV/ DOO RI ZKLFK ZHUH DJUHHG WR E\ PDQDJHPHQW1
$V RI 2FWREHU 4/ 5334/ 48 UHFRPPHQGDWLRQV KDG EHHQ LPSOHPHQWHG1 7KH UHPDLQLQJ VHYHQ
UHFRPPHQGDWLRQV WKDW KDYH QRW \HW EHHQ LPSOHPHQWHG DUH VXPPDUL]HG DV IROORZV=
       P 8SGDWH DQG UHYLVH WKH &RPPLVVLRQ·V LQWHUQDO UHFRUGV PDQDJHPHQW GLUHFWLYH1
       P 5HYLHZ SHUPDQHQW UHFRUGV WR YHULI\ FODVVLILFDWLRQ1
       P 6HHN 1$5$ DSSURYDO IRU D PRGLILHG 6) 4481
       P 3KDVH RXW WKH XVH RI WKH OHYHO 304 VWRUDJH DUHD IRU UHFRUGV VWRUDJH1

                                          48
                                        ig
                         2FWREHU 5334 6HPL$QQXDO 5HSRUW




$8',7 )2//2:083³&RQWLQXHG
      P 'HYHORS RIILFH SROLFLHV IRU PLQLPL]DWLRQ RI WKH FRVWV RI UHFRUGV VWRUDJH1
      P 6HHN 1$5$ DSSURYDO IRU HOHFWURQLF UHFRUGV VWRUDJH1
      P ,GHQWLI\ UHFRUGV VFDQQHG E\ (',6 VR WKH\ FDQ EH GLVSRVHG1
(YDOXDWLRQ RI WKH &RPPLVVLRQ·V ,PSOHPHQWDWLRQ RI (0)2,$/ 2,*0$5034034
+0DUFK 53/ 5334, KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50340341SGI
7KLV DXGLW UHVXOWHG LQ ILYH UHFRPPHQGDWLRQV/ DOO RI ZKLFK ZHUH DJUHHG WR E\ PDQDJHPHQW/
EXW DUH QRW \HW LPSOHPHQWHG1 7KHVH DXGLW UHFRPPHQGDWLRQV DUH VXPPDUL]HG DV IROORZV=
      P $QQXDOO\ SXEOLVK )2,$0UHTXLUHG LQIRUPDWLRQ LQ WKH )HGHUDO 5HJLVWHU1
      P &KDQJH SURFHGXUHV IRU QRWLILFDWLRQ DQG GRFXPHQWDWLRQ RI GHOD\HG (0)2,$
        UHVSRQVHV1
      P ,PSURYH SURFHGXUHV IRU DFFRXQWLQJ IRU )2,$ IHHV1
      P 'HYHORS D SURFHGXUH IRU UHFHLYLQJ (0)2,$ UHTXHVWV E\ H0PDLO1
      P $PHQG 4< &)5 53414:054 WR HPSKDVL]H )2,$ DIILUPDWLYH DFFHVV SURYLVLRQV1
5HYLHZ RI WKH &RPPLVVLRQ·V ,QIRUPDWLRQ 5HVRXUFHV 0DQDJHPHQW )XQFWLRQ/
2,*0$5034033 +6HSWHPEHU 5</ 5333, KWWS=22ZZZ1XVLWF1JRY2RLJ22,*0$50340331SGI
7KLV DXGLW UHVXOWHG LQ VL[ UHFRPPHQGDWLRQV IRU LPSURYLQJ WKH &RPPLVVLRQ·V ,QIRUPDWLRQ
5HVRXUFHV 0DQDJHPHQW +,50,1 0DQDJHPHQW DJUHHG WR WKHVH UHFRPPHQGDWLRQV/ EXW ILYH
KDYH QRW \HW EHHQ IXOO\ LPSOHPHQWHG1 $ VXPPDU\ RI WKH UHFRPPHQGDWLRQV QRW \HW
LPSOHPHQWHG LV DV IROORZV=
      P $SSRLQW D &,2 DQG DVVLJQ VXIILFLHQW UHVSRQVLELOLWLHV DQG UHVRXUFHV WR WKLV
        SRVLWLRQ VR WKDW WKH &,2 FDQ SURYLGH XQLILHG GLUHFWLRQ WR WKH &RPPLVVLRQ·V ,501
      P 3ODFH H[LVWLQJ ,500UHODWHG RIILFHV XQGHU WKH GLUHFWLRQ RI WKH &,21
      P 6WUHQJWKHQ WKH ,50 &RPPLWWHH1
      P ,PSURYH WKH PDQDJHPHQW RI WKH &RPPLVVLRQ·V ,50 SHUVRQQHO1
      P ,PSURYH LQIRUPDWLRQ VHFXULW\ SODQQLQJ1




                                          49
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




$8',7 )2//2:083³&RQWLQXHG
7KH &RPPLVVLRQ KDV UHTXHVWHG WKDW WKH 2IILFH RI 3HUVRQQHO 0DQDJHPHQW +230, GHVLJQDWH
WKH &,2 DV D 6HQLRU ([HFXWLYH 6HUYLFH SRVLWLRQ1 &RPSOHWLRQ RI WKH ILUVW WKUHH DFWLRQV OLVWHG
DERYH DZDLWV WKH 230 UHVSRQVH WR WKH &RPPLVVLRQ·V UHTXHVW1 ,Q DGGLWLRQ/ WKH &RPPLVVLRQ
KDV UHYLVHG DQG UHLVVXHG LWV GLUHFWLYH RQ LQIRUPDWLRQ VHFXULW\ DQG LVVXHG D QHZ KDQGERRN
RQ LQIRUPDWLRQ VHFXULW\1 +RZHYHU/ WKH &RPPLVVLRQ KDV QRW \HW FRPSOHWHG UHYLVLRQ RI LWV
LQIRUPDWLRQ VHFXULW\ SODQ1




                                            4:
                                       ig
                         2FWREHU 5334 6HPL$QQXDO 5HSRUW




                               ,163(&7,216

                           ,QVSHFWLRQ 5HSRUW /LVW
'XULQJ WKLV SHULRG QR ,QVSHFWLRQ 5HSRUWV ZHUH LVVXHG/ EXW WZR LQVSHFWLRQV ZHUH QHDULQJ
FRPSOHWLRQ1 2QH LQVSHFWLRQ DGGUHVVHV WKH &RPPLVVLRQ·V SURJUHVV LQ FRPSOHWLQJ LWV
6WUDWHJLF 3ODQ/ $QQXDO 3HUIRUPDQFH 3ODQ/ DQG $QQXDO 3HUIRUPDQFH 5HSRUW DV FDOOHG IRU
LQ WKH *RYHUQPHQW 3HUIRUPDQFH DQG 5HVXOWV $FW1 7KH RWKHU DGGUHVVHV WKH &RPPLVVLRQ·V
SURJUHVV LQ LPSOHPHQWLQJ YDULRXV SURJUDPV DVVRFLDWHG ZLWK WKH )DPLO\0)ULHQGO\
:RUNSODFH1




                                         4;
                                            ig
                            2FWREHU 5334 6HPL$QQXDO 5HSRUW




                              ,19(67,*$7,216
7KH 2,* LQYHVWLJDWHV FRPSODLQWV DQG LQIRUPDWLRQ UHFHLYHG FRQFHUQLQJ SRVVLEOH YLRODWLRQV
RI ODZV/ UXOHV/ DQG UHJXODWLRQV/ PLVPDQDJHPHQW/ DEXVH RI DXWKRULW\/ DQG ZDVWH RI IXQGV1
7KHVH LQYHVWLJDWLRQV DUH LQ UHVSRQVH WR DOOHJDWLRQV/ FRPSODLQWV/ DQG LQIRUPDWLRQ UHFHLYHG
IURP HPSOR\HHV/ RWKHU JRYHUQPHQW DJHQFLHV/ FRQWUDFWRUV/ DQG RWKHU FRQFHUQHG LQGLYLGXDOV1
7KH REMHFWLYH RI WKLV SURJUDP LV WR HQVXUH WKH LQWHJULW\ RI WKH &RPPLVVLRQ DQG DVVXUH
LQGLYLGXDOV IDLU/ LPSDUWLDO/ DQG LQGHSHQGHQW LQYHVWLJDWLRQV1


                          6XPPDU\ RI ,QYHVWLJDWLYH $FWLYLW\
$ VXPPDU\ RI LQYHVWLJDWLYH DFWLYLW\ LV SUHVHQWHG EHORZ1



      &DVH :RUNORDG                  5HIHUUDOV 3URFHVVHG       ,QYHVWLJDWLYH 5HVXOWV
 2SHQ +724234,        4       5HFHLYHG                  5     5HIHUUDOV IRU
                                                              3URVHFXWLRQ              3
 ,QLWLDWHG            3       ,QLWLDWHG ,QYHVWLJDWLRQ   3
                                                              5HIHUUDOV 'HFOLQHG
 &ORVHG               3       5HIHUUHG WR                     IRU 3URVHFXWLRQ          3
                              &RPPLVVLRQ                3
 2SHQ +<263234,       4                                       $GPLQLVWUDWLYH
                              (YDOXDWHG EXW 1R                $FWLRQ                   3
                              ,QYHVWLJDWLRQ
                              ,QLWLDWHG                 5


'XULQJ WKLV UHSRUWLQJ SHULRG/ QR QHZ FDVHV ZHUH LQLWLDWHG/ DQG RQH FDVH UHJDUGLQJ DQ
DOOHJHG FRQIOLFW RI LQWHUHVW E\ D IRUPHU HPSOR\HH ZDV VWLOO XQGHU FRQVLGHUDWLRQ IRU
SURVHFXWLRQ1




                                               4<
                                        ig
                          2FWREHU 5334 6HPL$QQXDO 5HSRUW




                           27+(5 $&7,9,7,(6
5HJXODWRU\ 5HYLHZ
7KH ,QVSHFWRU *HQHUDO $FW/ 8 8161&1 $SSHQGL[/ 6HFWLRQ 7+D,+5,/ UHTXLUHV WKH 2,* WR UHYLHZ
H[LVWLQJ DQG SURSRVHG OHJLVODWLRQ DQG UHJXODWLRQV DQG WR PDNH UHFRPPHQGDWLRQV
FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ RU UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ RI
SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG E\ WKH &RPPLVVLRQ1
7KH 2,* HYDOXDWHV WKH LPSDFW WKDW QHZ RU UHYLVHG SURFHGXUHV ZLOO KDYH RQ WKH HFRQRP\ DQG
HIILFLHQF\ RI SURJUDPV DQG RSHUDWLRQV1 7KH 2,* UHYLHZHG DQG FRPPHQWHG RQ SURSRVHG
DGPLQLVWUDWLYH RUGHUV IRU D 7UDQVSRUWDWLRQ )ULQJH %HQHILWV 3URJUDP DQG (VWDEOLVKPHQW RI
D 7D[ )UHH )ULQJH %HQHILW 3URJUDP IRU 3DUNLQJ DQG $XWKRUL]DWLRQ IRU 3DUWLDO 6XEVLG\1 7KH
2,* FRQFXUUHG LQ WKH FDQFHOODWLRQ RI FHUWDLQ RWKHU DGPLQLVWUDWLYH RUGHUV1 7KH 2,*
UHYLHZHG DQG FRPPHQWHG RQ 1RWLFH RI 3URSRVHG 5XOHPDNLQJ WR DPHQG 4< &1)151
3DUWV 534/ 537/ 539 DQG 53: WR FRUUHFW/ FODULI\/ DQG KDUPRQL]H GLIIHUHQW SDUWV RI WKH
UXOHV/ DQG FRQIRUP WKH UXOHV WR FXUUHQW SUDFWLFH1 7KH 2,* DOVR UHYLHZHG DQG
FRPPHQWHG RQ D GUDIW 1RWLFH RI 3URSRVHG 5XOHPDNLQJ DPHQGLQJ RQ DQ LQWHULP
EDVLV 4< &1)151 3DUW 539 WR SURYLGH GLVFORVXUH RI FRQILGHQWLDO EXVLQHVV LQIRUPDWLRQ
XQGHU DGPLQLVWUDWLYH SURWHFWLYH RUGHU LQ FHUWDLQ SURFHHGLQJV1

*$2
7KH ,QVSHFWRU *HQHUDO $FW VWDWHV WKDW HDFK ,QVSHFWRU *HQHUDO VKDOO JLYH SDUWLFXODU UHJDUG
WR WKH DFWLYLWLHV RI WKH &RPSWUROOHU *HQHUDO RI WKH 8QLWHG 6WDWHV ZLWK D YLHZ WRZDUG
DYRLGLQJ GXSOLFDWLRQ DQG HQVXULQJ HIIHFWLYH FRRUGLQDWLRQ DQG FRRSHUDWLRQ1
'XULQJ WKLV SHULRG/ WKH *$2 UHTXHVWHG &RPPLVVLRQ DVVLVWDQFH UHODWLQJ WR WKH IROORZLQJ
PDWWHUV=
       P :RUOG 7UDGH 2UJDQL]DWLRQ 0LQLVWHULDO &RQIHUHQFH DQG WKH SURSRVHG DJHQGD DQG
         WLPLQJ IRU D QHZ URXQG RI WUDGH QHJRWLDWLRQV
       P )LQDQFLDO VWDWHPHQW DXGLW UHTXLUHPHQWV
'XULQJ WKLV SHULRG ZH UHYLHZHG WKH IROORZLQJ *$2 UHSRUWV UHODWHG WR LQWHUQDWLRQDO WUDGH=
       P )UHH 7UDGH $UHD RI WKH $PHULFDV= $SULO 5334 0HHWLQJV 6HW 6WDJH IRU +DUG
         %DUJDLQLQJ WR %HJLQ1 *$20340:397 0D\ ;/ 5334
       P ,QWHUQDWLRQDO 7UDGH= &RPSDULVRQ RI 8161 DQG (XURSHDQ 8QLRQ 3UHIHUHQFH
         3URJUDPV1 *$2034097: -XQH ;/ 5334

                                          53
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




27+(5 $&7,9,7,(6³&RQWLQXHG
       P 1RUWK $PHULFDQ )UHH 7UDGH $JUHHPHQW= 8161 ([SHULHQFH :LWK (QYLURQPHQW/
         /DERU/ DQG ,QYHVWPHQW 'LVSXWH 6HWWOHPHQW &DVHV1 *$20340<661 -XO\ 53/ 53341

       P 7UDGH $GMXVWPHQW $VVLVWDQFH= ,PSURYHPHQWV 1HFHVVDU\/ EXW 3URJUDPV &DQQRW
         6ROYH &RPPXQLWLHV· /RQJ07HUP 3UREOHPV1 *$20340<;;71 -XO\ 53/ 53341

       P 7UDGH $GMXVWPHQW $VVLVWDQFH= ([SHULHQFHV                 RI   6L[   7UDGH0,PSDFWHG
         &RPPXQLWLHV1 *$20340;6;1 $XJXVW 57/ 5334

       P )UHH 7UDGH $UHD 2I 7KH $PHULFDV= 1HJRWLDWRUV 0RYH 7RZDUG $JUHHPHQW 7KDW
         :LOO +DYH %HQHILWV/ &RVWV WR 8161 (FRQRP\1 *$20340435:1 6HSWHPEHU :/ 5334

7KH ,7& ZDV PHQWLRQHG LQ WZR RI WKHVH UHSRUWV/ *$20340435: DQG *$2034097:1 7KH ,7&
ZDV PHQWLRQHG HLJKW WLPHV LQ *$20340435: DV D VRXUFH RI GDWD XVHG LQ WKH UHSRUW1 7KH ,7&
ZDV PHQWLRQHG IRXU WLPHV LQ *$2034097: LQ FRQQHFWLRQ ZLWK *$20,7& FRRUGLQDWLRQ
DFWLYLWLHV1

7KHUH ZHUH QR UHFRPPHQGDWLRQV LQ WKH *$2 UHSRUWV WKDW ZH UHYLHZHG WKDW ZHUH GLUHFWHG
WR WKH &RPPLVVLRQ1


/LDLVRQ $FWLYLWLHV

7KH ,QVSHFWRU *HQHUDO SURYLGHG PRUH WKDQ 43 GD\V RI FODVV0
URRP LQVWUXFWLRQ IRU WKH ,QVSHFWRUV *HQHUDO $XGLWRU 7UDLQLQJ
,QVWLWXWH1 +DYLQJ UHFHQWO\ VHUYHG DV WKH ,QVWLWXWH·V 'LUHFWRU/
WKH ,QVSHFWRU *HQHUDO GHVLJQHG DQG WDXJKW ´$QDO\WLFDO 7HFK0
QLTXHV IRU ,PSURYLQJ 3URFHVVHV IRU $XGLWRUV DQG (YDOXDWRUVµ
IRU WKH 5DLOURDG 5HWLUHPHQW %RDUG 2,* LQ &KLFDJR/ ,OOLQRLV> WKH
8161 'HSDUWPHQW RI -XVWLFH 2,* LQ 'HQYHU/ &RORUDGR> DQG PXO0
WLSOH 2IILFHV RI ,QVSHFWRU *HQHUDO LQ )W1 %HOYRLU/ 9LUJLQLD1 +H
DOVR WDXJKW ´7HDP :ULWLQJ IURP (QWUDQFH &RQIHUHQFH WKURXJK
)LQDO 5HSRUWµ DQG IDFLOLWDWHG D WHDP EXLOGLQJ ZRUNVKRS XVLQJ
WKH 0\HUV %ULJJV 7\SH ,QVWUXPHQW9 IRU PXOWLSOH 2IILFHV RI
,QVSHFWRU *HQHUDO LQ )W1 %HOYRLU1




                                           54
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




27+(5 $&7,9,7,(6³&RQWLQXHG
7KH ,QVSHFWRU *HQHUDO LV D PHPEHU RI WKH ([HFXWLYH &RXQFLO RQ ,QWHJULW\ DQG (IILFLHQF\
+(&,(,/ ZKLFK FRQVLVWV SULPDULO\ RI WKH ,QVSHFWRUV *HQHUDO DW WKH 67 GHVLJQDWHG IHGHUDO
HQWLWLHV1 7KH ([HFXWLYH &RXQFLO RQ ,QWHJULW\ DQG (IILFLHQF\ +(&,(, ZDV HVWDEOLVKHG E\
([HFXWLYH 2UGHU RQ 0D\ 44/ 4<<5 DQG FRQVLVWV RI 'HVLJQDWHG )HGHUDO (QWLW\ ,QVSHFWRUV
*HQHUDO DQG UHSUHVHQWDWLYHV RI WKH 2IILFH RI *RYHUQPHQW (WKLFV/ WKH 2IILFH RI 6SHFLDO
&RXQVHO/ WKH )HGHUDO %XUHDX RI ,QYHVWLJDWLRQ DQG WKH 2IILFH RI 0DQDJHPHQW DQG %XGJHW1
7KH ,QVSHFWRU *HQHUDO DOVR SDUWLFLSDWHV LQ DFWLYLWLHV VSRQVRUHG E\ WKH 3UHVLGHQW·V &RXQFLO
RQ ,QWHJULW\ DQG (IILFLHQF\ +3&,(,/ ZKLFK FRQVLVWV SULPDULO\ RI WKH 3UHVLGHQWLDOO\²
DSSRLQWHG ,QVSHFWRUV *HQHUDO1 7KH (&,( DQG 3&,( KDYH LGHQWLFDO IXQFWLRQV DQG
UHVSRQVLELOLWLHV WR SURPRWH LQWHJULW\ DQG HIILFLHQF\ DQG WR GHWHFW DQG SUHYHQW IUDXG/ ZDVWH/
DQG DEXVH LQ IHGHUDO SURJUDPV1


/HJLVODWLYH /LDLVRQ $FWLYLWLHV
2Q 0DUFK 63/ 5334 ZH VXEPLWWHG ZULWWHQ UHVSRQVHV WR TXHVWLRQV WKH $FWLQJ ,QVSHFWRU
*HQHUDO KDG UHFHLYHG GXULQJ KLV 0DUFK 48 WHVWLPRQ\ EHIRUH WKH +RXVH 6XEFRPPLWWHH RQ
*RYHUQPHQW 5HIRUP1




                                            55
                                          ig
                         2FWREHU 5334 6HPL$QQXDO 5HSRUW




              5(3257,1* 5(48,5(0(176 ,1'(;
7KH ,QVSHFWRU *HQHUDO $FW RI 4<:;/ DV DPHQGHG +4<;;,/ VSHFLILHV UHSRUWLQJ UHTXLUHPHQWV
IRU VHPLDQQXDO UHSRUWV1
&,7$7,21            5(3257,1* 5(48,5(0(176                                             3$*(

6HFWLRQ 7+D,+5,     5HFRPPHQGDWLRQV FRQFHUQLQJ WKH LPSDFW RI VXFK OHJLVODWLRQ RU       53054
                    UHJXODWLRQV RQ WKH HFRQRP\ DQG HIILFLHQF\ LQ WKH DGPLQLVWUDWLRQ
                    RI SURJUDPV DQG RSHUDWLRQV DGPLQLVWHUHG RU ILQDQFHG E\ WKH
                    &RPPLVVLRQ

6HFWLRQ 8+D,+4,     'HVFULSWLRQ RI VLJQLILFDQW SUREOHPV/ DEXVHV/ DQG GHILFLHQFLHV      1RQH
                    UHODWLQJ WR WKH DGPLQLVWUDWLRQ RI SURJUDPV DQG RSHUDWLRQV

6HFWLRQ 8+D,+5,     'HVFULSWLRQ RI WKH UHFRPPHQGDWLRQV IRU FRUUHFWLYH DFWLRQ PDGH      1RQH
                    ZLWK UHVSHFW WR VLJQLILFDQW SUREOHPV/ DEXVHV/ RU GHILFLHQFLHV

6HFWLRQ 8+D,+6,     ,GHQWLILFDWLRQ RI HDFK VLJQLILFDQW UHFRPPHQGDWLRQ GHVFULEHG LQ     4804:
                    SUHYLRXV VHPLDQQXDO UHSRUWV RQ ZKLFK FRUUHFWLYH DFWLRQ KDV QRW
                    EHHQ FRPSOHWHG

6HFWLRQ 8+D,+7,     6XPPDU\ RI PDWWHUV UHIHUUHG WR SURVHFXWLYH DXWKRULWLHV DQG WKH       4<
                    SURVHFXWLRQV DQG FRQYLFWLRQV ZKLFK KDYH UHVXOWHG

6HFWLRQ 8+D,+8,     6XPPDU\ RI HDFK UHSRUW PDGH WR WKH KHDG RI WKH HVWDEOLVKPHQW
                    XQGHU ZKLFK LQIRUPDWLRQ RU DVVLVWDQFH ZDV XQUHDVRQDEO\ UHIXVHG     1RQH

6HFWLRQ 8+D,+9,     /LVWLQJ RI HDFK DXGLW UHSRUW                                         44

6HFWLRQ 8+D,+:,     6XPPDU\ RI HDFK VLJQLILFDQW UHSRUW                                 45047

6HFWLRQ 8+D,+;,     6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWV04XHVWLRQHG &RVWV            57

6HFWLRQ 8+D,+<,     6WDWLVWLFDO WDEOHV VKRZLQJ $XGLW 5HSRUWV0)XQGV 3XW WR %HWWHU 8VH     58

6HFWLRQ 8+D,+43,    6XPPDU\ RI HDFK DXGLW UHSRUW LVVXHG EHIRUH WKH FRPPHQFHPHQW
                    RI WKH UHSRUWLQJ SHULRG IRU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV
                    EHHQ PDGH E\ WKH HQG RI WKH UHSRUWLQJ SHULRG                       1RQH

6HFWLRQ 8+D,+44,    'HVFULSWLRQ DQG H[SODQDWLRQ RI WKH UHDVRQV IRU DQ\ VLJQLILFDQW
                    UHYLVHG PDQDJHPHQW GHFLVLRQV                                       1RQH

6HFWLRQ 8+D,+45,    ,QIRUPDWLRQ FRQFHUQLQJ DQ\ VLJQLILFDQW PDQDJHPHQW GHFLVLRQ
                    ZLWK ZKLFK WKH ,QVSHFWRU *HQHUDO LV LQ GLVDJUHHPHQW                1RQH




                                            56
                                             ig
                             2FWREHU 5334 6HPL$QQXDO 5HSRUW




                    7DEOH 4
     $8',7 5(32576 :,7+ 48(67,21(' &2676
                                                                      'ROODU 9DOXH

                                              1XPEHU RI   4XHVWLRQHG          8QVXSSRUWHG
                                                5HSRUWV        &RVWV                &RVWV

$1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV
     EHHQ PDGH E\ WKH FRPPHQFHPHQW RI WKH SHULRG     3            3                    3

%1   :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG   3            3                    3

     6XEWRWDOV +$.%,                                 3            3                    3

&1   )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH
     GXULQJ WKH UHSRUWLQJ SHULRG                     3            3                    3

     +L,     'ROODU YDOXH RI
             GLVDOORZHG FRVWV                        3            3                    3

     +LL,    'ROODU YDOXH RI FRVWV
             QRW GLVDOORZHG                          3            3                    3

'1   )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ
     PDGH E\ WKH HQG RI WKH UHSRUWLQJ SHULRG         3            3                    3

(1   5HSRUWV IRU ZKLFK QR PDQDJHPHQW GHFLVLRQ ZDV
     PDGH ZLWKLQ VL[ PRQWKV RI LVVXDQFH              3            3                    3




                                                57
                                               ig
                              2FWREHU 5334 6HPL$QQXDO 5HSRUW




                     7DEOH 5
     $8',7 5(32576 :,7+ 5(&200(1'$7,216
        7+$7 )81'6 %( 387 72 %(77(5 86(
                                                                          1XPEHU RI   'ROODU
                                                                            5HSRUWV    9DOXH

$1     )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH E\
       WKH FRPPHQFHPHQW RI WKH SHULRG                                            3        3

%1     :KLFK ZHUH LVVXHG GXULQJ WKH UHSRUWLQJ SHULRG                             3        3

6XEWRWDOV +$.%, 3                                                                3

&1     )RU ZKLFK D PDQDJHPHQW GHFLVLRQ ZDV PDGH GXULQJ WKH UHSRUWLQJ SHULRG      3        3

       +L,     'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
               DJUHHG WR E\ PDQDJHPHQW                                           3        3

       +LL,    'ROODU YDOXH RI UHFRPPHQGDWLRQV WKDW ZHUH
               QRW DJUHHG WR E\ PDQDJHPHQW                                       3        3

'1     )RU ZKLFK QR PDQDJHPHQW GHFLVLRQ KDV EHHQ PDGH E\ WKH HQG RI WKH
       UHSRUWLQJ SHULRG                                                          3        3

(1     5HSRUWV IRU ZKLFK QR PDQDJHPHQW GHFLVLRQ ZDV PDGH ZLWKLQ VL[
       PRQWKV RI LVVXDQFH                                                        3        3




                                                  58
                                         ig
                           2FWREHU 5334 6HPL$QQXDO 5HSRUW




                                   */266$5<
7KH IROORZLQJ GHILQLWLRQV DSSO\ WR WKH WHUPV XVHG LQ WKLV UHSRUW1


4XHVWLRQHG &RVW              PHDQV D FRVW WKDW LV TXHVWLRQHG E\ WKH 2IILFH EHFDXVH RI=
                             +4, DQ DOOHJHG YLRODWLRQ RI D SURYLVLRQ RI D ODZ/ UHJXODWLRQ/
                             FRQWUDFW/ JUDQW/ FRRSHUDWLYH DJUHHPHQW/ RU RWKHU DJUHHPHQW RU
                             GRFXPHQW JRYHUQLQJ WKH H[SHQGLWXUH RI IXQGV> +5, D ILQGLQJ
                             WKDW/ DW WKH WLPH RI WKH DXGLW/ VXFK FRVW LV QRW VXSSRUWHG E\
                             DGHTXDWH GRFXPHQWDWLRQ> RU +6, D ILQGLQJ WKDW WKH H[SHQGLWXUH
                             RI IXQGV IRU WKH LQWHQGHG SXUSRVH LV XQQHFHVVDU\ RU
                             XQUHDVRQDEOH1

8QVXSSRUWHG &RVW             PHDQV D FRVW WKDW LV TXHVWLRQHG E\ WKH 2IILFH EHFDXVH WKH
                             2IILFH IRXQG WKDW/ DW WKH WLPH RI WKH DXGLW/ VXFK FRVW LV QRW
                             VXSSRUWHG E\ DGHTXDWH GRFXPHQWDWLRQ1

'LVDOORZHG &RVW              PHDQV D TXHVWLRQHG FRVW WKDW PDQDJHPHQW/ LQ D PDQDJHPHQW
                             GHFLVLRQ/ KDV VXVWDLQHG RU DJUHHG VKRXOG QRW EH FKDUJHG WR WKH
                             *RYHUQPHQW1

5HFRPPHQGDWLRQ WKDW          PHDQV D UHFRPPHQGDWLRQ E\ WKH 2IILFH WKDW IXQGV FRXOG EH
IXQGV EH SXW WR EHWWHU       XVHG PRUH HIILFLHQWO\ LI PDQDJHPHQW RI DQ HVWDEOLVKPHQW
XVH                          WRRN DFWLRQV WR LPSOHPHQW DQG FRPSOHWH WKH UHFRPPHQGDWLRQ/
                             LQFOXGLQJ=
                             +4, UHGXFWLRQ LQ RXWOD\V> +5, GHREOLJDWLRQ RI IXQGV IURP
                             SURJUDPV RU RSHUDWLRQV> +6, ZLWKGUDZDO RI LQWHUHVW VXEVLG\
                             FRVWV RQ ORDQV RU ORDQ JXDUDQWHHV/ LQVXUDQFH/ RU ERQGV> +7,
                             FRVWV QRW LQFXUUHG E\ LPSOHPHQWLQJ UHFRPPHQGHG
                             LPSURYHPHQWV UHODWHG WR WKH RSHUDWLRQV RI WKH HVWDEOLVKPHQW/
                             D FRQWUDFWRU RU JUDQWHH> +8, DYRLGDQFH RI XQQHFHVVDU\
                             H[SHQGLWXUHV QRWHG LQ SUHDZDUG UHYLHZV RI FRQWUDFW RU JUDQW
                             DJUHHPHQWV> RU +9, DQ\ RWKHU VDYLQJV ZKLFK DUH VSHFLILFDOO\
                             LGHQWLILHG1




                                           59
                      ig
         2FWREHU 5334 6HPL$QQXDO 5HSRUW




    6SHFLDO WKDQNV WR WKH 2IILFH RI 3XEOLVKLQJ
        IRU WKH SURGXFWLRQ RI WKLV UHSRUW=

     .HYHQ %ODNH= &RYHU GHVLJQ DQG SKRWRJUDSK\

3DPHOD '\VRQ= 5HSRUW GHVLJQ DQG FRPSRVLWLRQ VHUYLFHV

      3ULQWLQJ 2SHUDWLRQV= 5HSURGXFWLRQ VHUYLFH




                        5:
  ,I \RX VXVSHFW )UDXG/ :DVWH/ $EXVH/ RU RWKHU PLVFRQGXFW DW WKH
       ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ/ SOHDVH FRQWDFW XV DW=

                      ,*+RWOLQH#XVLWF1JRY
                              RU
                  (WKLFV/LQH 400;3300833003666
                              RU
              KWWS=22ZZZ1XVLWF1JRY2RLJ2RLJKRW1KWP

7KH (WKLFV/LQH LV DYDLODEOH 57 KRXUV SHU GD\1 7KH FDOOHU FDQ UHPDLQ
  DQRQ\PRXV1 ,I \RX SUHIHU/ \RX PD\ VHQG ZULWWHQ FRPSODLQWV WR=

            8161 ,QWHUQDWLRQDO 7UDGH &RPPLVVLRQ
                  2IILFH RI ,QVSHFWRU *HQHUDO
                            5RRP 848
                       833 ( 6WUHHW/ 61:1
                    :DVKLQJWRQ/ '& 53769

)HGHUDO HPSOR\HHV DUH SURWHFWHG IURP UHSULVDO XQGHU WKH SURYLVLRQV
RI WKH :KLVWOHEORZHU 3URWHFWLRQ $FW RI 4<;<1 )RU PRUH LQIRUPDWLRQ/
 VHH WKH 063% SXEOLFDWLRQ HQWLWOHG ´4XHVWLRQV DQG $QVZHUV $ERXW
  :KLVWOHEORZHU $SSHDOVµ/ ZKLFK LV DYDLODEOH LQ WKH 0DLQ /LEUDU\/
               WKH 2IILFH RI 3HUVRQQHO/ DQG WKH 2,*1
